  ARRA WEBSITES VULNERABLE TO
HACKERS AND CARRY SECURITY RISKS

       Department of Transportation

        Report Number: FI-2011-006
         Date Issued: 10/22/2010
                                                                                               1




           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on ARRA Websites Vulnerable              Date:    October 22, 2010
           to Hackers and Carry Security Risks
           Department of Transportation
           Report Number: FI-2011-006

  From:    Earl C. Hedges                                       Reply to
                                                                Attn. of:   JA–20
           Acting Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Chief Information Officer, DOT

           On February 17, 2009, President Obama signed into law the American Recovery
           and Reinvestment Act of 2009 (ARRA) in response to the economic crisis facing
           the nation.     ARRA requires unprecedented levels of transparency and
           accountability so that taxpayers know where their tax dollars are being spent. To
           address that requirement, the Department of Transportation (DOT) and its
           Operating Administrations (OA) deployed various Websites to collect and
           disseminate ARRA related information. With multiple Websites in play, DOT's
           ARRA program inevitably inherits security risks. In recent years, public Websites
           have become the target of cyber attacks. For example, hackers launched a
           malicious denial-of-service attack against DOT’s main Website on July 5, 2009,
           resulting in the public's inability to access DOT information. In addition,
           vulnerabilities in Web-based technologies could allow attackers to gain
           unauthorized access to sensitive information stored in agency computers.

           The objective of this audit was to determine if DOT's recovery Websites and
           database systems are properly configured to minimize the risk of cyber attacks.
           Accordingly, we performed assessments of these Websites and systems to identify
           vulnerabilities. A detailed description of the scope and methodology used on this
           audit can be found in exhibit A. We conducted this audit between December 2009
           and July 2010 in accordance with generally accepted government auditing
           standards.



           RESULTS IN BRIEF
                                                                                                                    2


DOT's ARRA-related Websites and databases contain a combination of high-,
moderate-, and low-risk vulnerabilities. 1 By exploiting the high-risk
vulnerabilities, hackers could attack the computers used by the public to access the
Websites and gain access to sensitive data, such as password files stored on
servers, take control of a server and attack other computers on DOT's networks.
These vulnerabilities exist because the Websites, databases and servers are not
configured in compliance with DOT configuration security standards. For security
reasons, we are not presenting specific vulnerabilities in this report. However, we
briefed department officials on specifics including potential fixes to address our
recommendations.

BACKGROUND
Seven Operating Administrations (OAs) have received over 48 billion dollars in
ARRA stimulus funds, with more than 93 percent of these funds allocated to
FHWA, FRA and FTA (see Table 1).

                      Table 1. Distribution of ARRA Funds within DOT

                              OA                        Stimulus Funds            Percent of Total
                                                           (millions)
              Federal Highway
                                                                    $27,500                    57.15%
              Administration (FHWA)
              Federal Railroad
                                                                     $9,300                    19.33%
              Administration (FRA)
              Federal Transit
                                                                     $8,400                    17.46%
              Administration (FTA)
              Office of the Secretary
                                                                     $1,500                     3.12%
              (OST)
              Federal Aviation
                                                                     $1,300                     2.70%
              Administration (FAA)
              Maritime Administration
                                                                        $100                    0.21%
              (MARAD)
              Office of Inspector General
                                                                         $20                    0.04%
              (OIG)
              Total                                                 $48,120                  100.00%
            Source: ARRA

ARRA outlined two different reporting requirements in order to track the use of
Recovery funds--Section 1201 and 1512:


1
    High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
    execution of remote commands. Moderate-risk and low-risk vulnerabilities may provide an attacker with useful
    information, such as error messages revealing system configuration that they can then use to compromise a computer
    system.
                                                                                3


   • Section 1201 requires agencies to provide periodic reports to Congress,
     tracking the amounts of Federal funds appropriated, numbers of projects
     put out to bid, numbers of projects awarded and the amounts awarded,
     numbers of projects for which work has begun or completed, numbers of
     jobs created, and aggregate expenditures by each grant recipient.

   • Section 1512 requires recipients to submit quarterly reports to the
     Department identifying the total amount of funds received, the amount of
     funds obligated, a detailed list of projects for which funds were expended,
     and detailed information on any sub grants awarded by the grant recipient.


In fulfilling Section 1201 reporting requirements, DOT uses its existing financial
systems to compile ARRA data. Five OAs--FHWA, FAA, MARAD, FRA, and
FTA--have developed internal processes for collecting, storing, and reporting
information on ARRA grant activities to OST. MARAD and FRA report this
information directly through the departmental financial system, Delphi, while
FHWA, FAA, and FTA use their own grant management systems to process and
store data before it is electronically sent to the Delphi system. When the
Department is ready to report on these funds, an extract of the data is populated
into an Excel template by OST and emailed to the Recovery Accountability and
Transparency Board for posting to the Recovery.gov website (see Figure 1).

In an effort to provide transparency to the public, these OAs post ARRA data to
their individual Websites, and DOT's main Recovery Webpage and interactive
map Website which displays geographical information on the ARRA projects.
Currently, DOT's interactive map Website is maintained by the Research and
Innovative Technology Administration (RITA). Our audit focused on DOT's
recovery Websites.
                                                                                                                        4


                      Figure 1. DOT ARRA Reporting Process (Section 1201)




        FHWA                     Connected                                                   Manually Update
     RASPS System                 to Delphi                                                      Delphi


                                    FHWA
                                                                                                      FRA
                               Delphi Interface
                             Management System                                                (1 Grant - AMTRAK)

         FHWA
      FMIS System
    (10,000 projects)
                                                               Delphi                                MARAD

                                                               (financial                      (70 Grants – Small
                                      FTA                                                       Shipyards Grant
                                 ECHO System                 transactions)                         Program)


          FTA
     TEAM System
     (800 Projects)
                                                                                Excel template is
                                     FAA                                     populated and emailed
                                 SOAR System
                                 (300 Projects -
           FAA                Airport Improvement
      ARRA Database                Program)
        Collector                                          Recovery.gov


    Source: OIG

ARRA Websites and Databases Are Vulnerable to Cyber Attacks

The OAs' ARRA-related Websites and databases, including the servers on which
they are hosted, contain a total of 1,822 high-risk, 3,550 medium-risk, and 3,759
low-risk security vulnerabilities (see Table 2). 2      These vulnerabilities exist
because the Websites, servers, and database systems are not configured in
compliance with DOT's configuration security standards. As a result, the systems
are vulnerable to cyber attacks which could not only undermine DOT's ARRA
reporting, but also interrupt DOT's business operations.




2
    Due to the software manufacturer's use of slightly different definitions for classifications of vulnerability, we
    combined their "critical" and "high-risk" vulnerabilities into one "high-risk" category, and their "informational" and
    "low-risk" vulnerabilities into one " low-risk" category.
                                                                                                                      5



                           Table 2. Vulnerability Assessment Results

                                     Number                      Potential Vulnerabilities
                                     Reviewed                High       Medium           Low
     Server Level
     Assessment                           16                    7                  6                   48
     Website
     Assessment                           13                 1759                1257                3541
     Database
     Assessment                            3                   56                2287                 170

     TOTAL                                32                 1822                3550                3759
    Source: OIG


Most of the high-risk vulnerabilities are associated with 13 Websites, 3 which
contain Web pages used to post ARRA-related information for public use. These
vulnerable Websites could put users' computers in danger by allowing hackers to
gain access to the users' computer and their personal information, thus diminishing
the public's trust in the Agency. For example, one particular vulnerability, found
on 8 of the 13 Websites, could allow hackers to use the Websites to launch attacks
on users' computers.

In addition, we identified high-risk vulnerabilities on the computer servers hosting
ARRA information. 4 Such vulnerabilities could allow attackers to gain access to
the ARRA data residing on the servers. By exploiting these vulnerabilities, we
obtained password and system configuration files from one server. If an inside
attacker were able to exploit the same vulnerability, he or she could potentially
crack the passwords, take control of the server, and do harm, such as introducing
viruses, to DOT's network.

We also identified several high-risk vulnerabilities on the databases, which could
result in damage to the ARRA-related data stored in the databases. For example,
to facilitate grantees' collection of information for external reporting, per ARRA
Section 1512, FHWA implemented a database system known as the Recovery Act
Data System (RADS). We found vulnerability on this database which could be
exploited to compromise the database's server and result in unauthorized access
allowing modification or destruction of ARRA data. For security reasons, we are


3
    A Website consists of many Web pages that display information for Internet users.
4
    These servers include those hosting DOT's TIGER Collector system. TIGER Collector was initially developed for
    OAs to centralize DOT's ARRA reporting. However, at the time of our audit, the system was no longer being used
    by OAs since OAs had found ways of using their own financial systems for ARRA reporting. Although the Web
    interface of TIGER Collector has been disabled, the two computer servers supporting this system were still active on
    DOT's internal network as of April 6, 2010.
                                                                                  6


not presenting specific vulnerabilities in this report. However, we provided
detailed information to department officials for immediate corrective actions.

CONCLUSION
The Department of Transportation received an additional 48 billion taxpayer
dollars through ARRA. Not only is DOT responsible for ensuring transparency
and accountability of ARRA funds so that taxpayers know how these dollars are
spent, it is also responsible for ensuring that its publicly accessible Websites are
reasonably secured. DOT's ARRA-related Websites, servers and databases,
however, are vulnerable to cyber attacks because they are not configured in
compliance with the Department's security configuration standards. DOT
management needs to take immediate corrective actions to minimize the risk of
cyber attacks on these systems.

RECOMMENDATIONS
For security reasons, we are not disclosing the details of the potential fixes we
provided to OA officials. Accordingly, we recommend that DOT's Chief
Information Officer direct OA officials to (1) take immediate actions to correct the
high-risk vulnerabilities found on ARRA-related Websites and databases, and (2)
ensure that the planned corrections of other weaknesses identified during this audit
are tracked and monitored in the OAs' Plan of Actions and Milestones (POA&M)
system.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of this report to the DOT Chief Information Officer for
comment on August 30, 2010, and received his response on September 30, 2010.
He concurred with the two recommendations and discussed appropriate planned
actions and target completion dates. The response is included in its entirety in
Appendix A.
                                                                                7


ACTIONS REQUIRED

The CIO's planned actions and target dates are responsive to our
recommendations. We consider these recommendations addressed pending
completion of the planned actions. We appreciate the courtesies and cooperation
of Department of Transportation representatives during this audit. If you have any
questions concerning this report, please call me at (410) 962-3612 or Louis King,
Program Director, at (202) 366-1407.

                                        #




cc:   Chief Information Officer, FHWA
      Chief Information Officer, FTA
      Chief Information Officer, FRA
      Chief Information Officer, FAA
      Chief Information Officer, MARAD
      Chief Information Officer, RITA
      Martin Gertel, M-1
                                                                                   8



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our
finding and conclusion based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusion
based on our audit objective.

The audit work was performed from December 2009 to July 2010. We
surveyed all Operating Administrations (OA) to collect specific information
regarding all internal or public facing systems, such as Websites and databases
that are related to ARRA reporting. Based on the OAs' input, we compiled an
inventory of DOT's ARRA-related Websites and database systems. We also
interviewed officials from the OAs that received ARRA stimulus funds in order
to gain an understanding of DOT's ARRA reporting process.

To determine if DOT's recovery Websites and database systems are configured
to minimize the risk of cyber attack, we performed vulnerability assessments on
the computer systems, Websites and databases identified in the inventory. We
performed the assessment using automated software tools as well as manual
testing techniques. We reviewed the results of the scans to determine if the
systems were in compliance with DOT's security configuration standards.




Exhibit A. Scope and Methodology
                                                                     9




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Louis King                            Program Director, IT Audit

  Dr. Ping Sun                          Program Director, IT Audit
                                        Computer Laboratory

  Michael Marshlick                     Project Manager

  Vasily Gerasimov                      Computer Scientist

  Atul Darooka                          Information Technology
                                        Specialist

  Susan Neill                           Writer-Editor




Exhibit B. Major Contributors to This Report
                              10


APPENDIX A. AGENCY COMMENTS




Apendix A: Agency Comments
                              11


APPENDIX A. AGENCY COMMENTS




Appendix A: Agency Comments
